                                Springfield Technical Community College
                                           One Armory Square
                                    Springfield, Massachusetts 01105

                                      National Science Foundation
                                     Award Number DUE - 9751990

                          Independent Auditors' Reports and Financial Schedule




  LEON SNEAD
  &COMPANY, PC.
Certified Public Accountants
& Management Consultants
      Springfield Technical Community College
                 One Armory Square
          Springfield, Massachusetts 01105

            National Science Foundation
           Award Number DUE - 9751990

Independent Auditors' Reports and Financial Schedule




 For Period September I , 1997 to February 28,2001




                                 Leon Snead & Company, P.C.
                                 416 Hungerford Drive, Suite 400
                                 Rockville, Maryland 20850
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                                         TABLE OF CONTENTS


                                                                                                                       Page

Executive Summary:

  Background. ....................................................................................................................1
  Audit Objectives, Scope, and Methodology…................................................................2
  Summary of Audit Results ..............................................................................................2
  Exit Conferences .............................................................................................................4

Audit Findings and Recommendations:

  Independent Auditors’ Report on Financial Schedules. ..................................................6
  Independent Auditors’ Report on Compliance with Laws and Regulations
    and Internal Control Over Financial Reporting............................................................8

Financial Schedules and Supplemental Information:

  Schedule A - Schedule of Award Costs (Award No. DUE-9751990)..........................18
  Schedule B - Schedule of Questioned Costs (Award No. DUE-9751990) ..................19
  Schedule C - Summary Schedules of Award Audited and Audit Results
                  (Award No. DUE-9751990) ................................................................26
  Notes to the Financial Schedules...............................................................................…29

  Appendix A – Springfield Technical Community College’s
                Comments to the Report ..................................................................31




                                                               i
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


                             EXECUTIVE SUMMARY

BACKGROUND

Springfield Technical Community College (STCC) is a component unit of the
Commonwealth of Massachusetts. STCC follows the cost principles specified in Office
of Management and Budget (OMB) Circular A-21, Cost Principles for Educational
Institutions and the Federal administrative requirements contained in OMB Circular A-
110, Uniform Administrative Requirements for Grants and Agreements With Institutions
of Higher Education, Hospitals, and Other Non-Profit Organizations.

On September 1, 1997, the National Science Foundation (NSF) issued award DUE-
9751990 to STCC to fund the Northeast Center for Telecommunications Technology
(NCTT) project. The goals and objectives of the project were to increase the number of
trained persons in the competitive telecommunications industry. The awardee proposed
to monitor trends, develop and disseminate relevant curricula and materials, explore and
promote the best educational methods, and ensure continuing competency of faculty who
teach telecommunications-related programs, and recruit and educate a diverse student
population. Led by STCC in Massachusetts and Hudson Valley Community College in
New York, a consortium of six senior institutions, ten community technical colleges,
numerous secondary schools, several business/industry partners, government agencies,
and the New England Board of Higher Education were proposed as participants in the
project. The NSF award budget was $3,000,000 and STCC agreed to provide cost sharing
in the amount of $1,730,000 to support the project for the entire period September 1, 1997 to
February 28, 2001. STCC claimed NSF funding of $2,945,325 and cost sharing of
$1,792,327 as of July 2004.




                                             1
AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our audit were to determine whether:

1. Costs charged to the NSF award by STCC are allowable, allocable, and reasonable, in
   accordance with the applicable Federal cost principles and NSF award terms and
   conditions; and

2. STCC’s systems of internal controls are adequate to properly administer, account for,
   and monitor its NSF awards in compliance with NSF and Federal requirements.

Our audit was conducted in accordance with auditing standards generally accepted in the
United States of America, Government Auditing Standards (1994 Revision) issued by the
Comptroller General of the United States, and the National Science Foundation Audit
Guide (September 1996), as applicable. These standards, and the National Science
Foundation Audit Guide, require that we plan and perform the audit to obtain reasonable
assurance about whether the amounts claimed to the National Science Foundation as
presented in the Schedule of Award Costs (Schedule A), are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in Schedule A. An audit also includes assessing the accounting
principles used and significant estimates made by STCC, as well as evaluating the overall
financial schedule’s presentation. We believe that our audit provides a reasonable basis
for our opinion.

We tested a sample of costs claimed by STCC for compliance with Federal and NSF
award requirements. Based on this sampling plan, questioned costs in this report may not
represent total costs that may have been questioned had all expenditures been tested. In
addition, we made no attempt to project such costs to total costs claimed, based on the
relationship of costs tested to total costs.

SUMMARY OF AUDIT RESULTS

An audit was performed on the financial reports submitted to NSF, as well as the cost-
sharing amount provided by STCC for the NSF award audited. These costs and the
results of our audit are shown in Schedule A and are summarized as follows:


      Award                Source of                         Claimed        Questioned
      Number               Funding           Budget           Costs            Costs
    DUE-9751990          NSF Funding        $3,000,000      $2,945,325      $ 35,000
                         Cost Sharing        1,730,000       1,792,327        195,133
                         Total Project      $4,730,000      $4,737,652      $ 230,133

The costs claimed by STCC for award expenditures generally appear reasonable,
allowable, and allocable in accordance with the applicable Federal costs principles and
NSF award terms and conditions, except for $35,000 of consultant costs and $195,133 for


                                           2
cost sharing that we questioned because of inadequate support documentation. Similarly,
STCC’s systems of internal controls were generally adequate to properly administer,
account for, and monitor its NSF award in compliance with NSF and Federal
requirements, except in the area of consultant costs and cost sharing.

Thirty five thousand dollars in consultant costs were questioned because STCC could not
provide documentation to show how and/or to what extent a consultant’s work benefited
the award and the consultant payments exceeded the maximum allowable consultant’s
daily rate of pay. In addition, STCC also claimed the same $35,000 in consultant costs as
cost share.

During our initial review of cost sharing in the Fall of 2001, we found that STCC did not
have a system in place, which included written policies and procedures, for recording,
monitoring, documenting, and reporting cost sharing for the NSF award. As a result,
STCC failed to fully comply with the cost-sharing requirements set forth in the NSF
award letter which stated that STCC is required to (1) provide $1.5 million of cost
sharing, (2) ensure that its subcontractors provide $230,000 in cost sharing, and (3)
submit required cost-sharing certifications including certifications for its subcontractors.
The letter also stated that if the subcontractors failed to meet their promised cost sharing,
STCC should not reimburse the subcontractors in full for their work on the project.

In an effort to provide useful information to NSF management on STCC’s cost sharing
for the award, we conducted a follow-up review in July 2004 at which time STCC
provided documentation for $1.7 million of claimed cost sharing after our initial audit
fieldwork. Our objective was to determine if STCC (1) could provide adequate
supporting documentation for a $1.4 million sample of the $1.7 million of cost sharing,
and (2) had a cost-sharing system in place to adequately account for current and future
NSF awards. We found that although STCC had taken steps to establish cost-sharing
policies and procedures and a system to track and report cost sharing since our initial visit
in 2001, the awardee could not provide support for $260,186 of cost sharing. The
awardee also claimed questionable and inadequately supported cost sharing of $266,031,
which led us to identify as questionable, a total of $526,217, or 29 percent of the $1.7
million of claimed cost sharing. NSF funded $3 million (63 percent) of the total
budgeted project costs and STCC was to ensure that cost sharing was provided for the
remaining $1.7 million (37 percent). Because STCC failed to ensure that all the cost
share was provided, approximately $314,000 of the direct NSF funding was questioned.
(See Schedule B, Note 2 for further explanation). Meeting the award’s cost-sharing
requirements is important to ensure that the award project goals are met.

In addition to not always maintaining supporting documentation for the claimed cost-
shared amounts, we identified that STCC did not certify after-the-fact labor effort of staff
whose salaries were claimed as cost sharing. When asked why the NSF cost-sharing
provisions were not fully adhered to, current NCTT and STCC officials could not provide
an explanation for the lack of oversight by the former Principal Investigator who had
been responsible for cost sharing required by the award. We considered the lack of
certified labor effort reports and other supporting documentation for cost sharing to be a



                                             3
material internal control weakness because salaries comprised approximately 23.8
percent of STCC’s $1.7 million claimed cost sharing. Also, approximately 17.7 percent
of the $1.4 million that we tested was not supported with documentation. STCC is in the
process of writing a Grants Manual to ensure that its current system accounts for,
monitors, adequately documents, and reports cost sharing in compliance with NSF award
terms and conditions, and Federal requirements for its current and future NSF awards.

To address these material internal control weaknesses in the areas of consultant costs and
cost sharing, we recommend that the Division Directors of the Division of Institution and
Award Support (DIAS) and the Division of Grants and Agreements (DGA) ensure that
STCC maintain documentation for all consultant costs that identifies how the consultant’s
work benefited the NSF award; ensure that the consultant payments do not exceed the
maximum allowable daily rate of pay; and institute proper controls to ensure that the
costs charged to the NSF award are not also charged as cost share. Additionally, we
recommend that the Division Directors ensure that STCC strictly adhere to its current
system to account for, monitor, adequately document, and report cost sharing as
described its Grants Manual to ensure compliance with NSF award and other Federal
requirements, for its current and future NSF awards. Also, STCC’s cost-sharing system
should include provisions for maintaining after-the-fact labor effort certifications and
supporting documentation related to cost sharing.

We believe that if STCC fails to address these weaknesses, similar problems may occur
on other existing and future NSF awards. As of January 2005, STCC has three active
NSF awards totaling approximately $3.7 million and STCC agreed to provide cost
sharing of approximately $1.7 million on one of the awards.

In December 2004, STCC officials provided their response to the audit findings and
recommendations made in this report, and also provided additional documentation for
$432,688 of cost sharing. Out of $432,688, we identified $161,407 as allowable and
proportionately reduced the questioned NSF share from $314,172 to $195,133. (See
schedule B, Note 2 for further explanation).

STCC agreed with the internal control and compliance findings in the report and has
taken steps to revise its Grant Manual and ensure that all consultant costs and cost
sharing are allowable and are adequately documented. However, the findings cannot be
resolved until NSF verifies that the proposed corrective actions have been satisfactorily
implemented and all recommendations have been adequately addressed. STCC’s
response has been summarized within the report and is included in its entirety in
Appendix A.

EXIT CONFERENCES

An exit conference was held on December 13, 2001, at STCC’s office in Springfield,
Massachusetts. Preliminary audit report finding and recommendation, as well as other
observations, were discussed with those attending.




                                            4
Representing STCC were:

           Name                      Title
           XXXXXXXXXXXX              XXXXXXXXXXXXXX
           XXXXXXXXXXXX              XXXXXXXXXXXXXXXXX
           XXXXXXXXX                 XXXXXXXXXXXXXXXXXXXXXXXX
           XXXXXXXXX                 XXXXXXXXXXXX
           XXXXXXX                   XXXXXXXX
           XXXXXXXX                  XXXXXXXXXX

Representing Leon Snead & Company, P.C. was:

           Name                      Title
           XXXXXXX                   XXXXXXXX

A second exit conference was held on September 14, 2004 by telephone. Findings and
recommendations contained in this report were discussed with those attending.

Representing STCC were:

           Name                      Title
           XXXXXXXX                  XXXXXXXXXXXXXXXXXXXXXXXXXXXX
           XXXXXXXX                  XXXXXXXXXXXXXXXXXX
           XXXXXXXXX                 XXXXXXXXXXXXXXXXXXXX
           XXXXXXXXXXXX              XXXXXXXXXXXXXXXXX
           XXXXXXXXXXXX              XXXXXXXXXXXXXX
           XXXXXXX                   XXXXXXXX
           XXXXXXXX                  XXXXXXXXXX


Representing Leon Snead & Company, P.C. was:

           Name                      Title
           XXXXXX                    XXXXXX

Representing NSF/Office of Inspector General were:

           Name                      Title
           XXXXXX                    XXXXXXXX
           XXXXXXX                   XXXXX




                                         5
AUDIT FINDINGS AND RECOMMENDATIONS
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


     INDEPENDENT AUDITORS’ REPORT ON FINANCIAL SCHEDULES

We audited the costs claimed by Springfield Technical Community College (STCC) to
the National Science Foundation (NSF) on the Federal Cash Transactions Reports
(FCTR) – Federal Share of Net Disbursements for the NSF award listed below. In
addition, we audited the amount of cost sharing claimed on the award. The FCTRs, as
presented in the Schedule of Award Costs (Schedule A), are the responsibility of STCC’s
management. Our responsibility is to express an opinion on Schedule A based on our
audit.

     Award Number                     Award Period                   Audit Period

      DUE-9751990                  09/01/97 to 02/28/01          09/01/97 to 02/28/01

We conducted our audit in accordance with auditing standards generally accepted in the
United States of America, Government Auditing Standards (1994 Revision) issued by the
Comptroller General of the United States, and the National Science Foundation Audit
Guide (September 1996), as applicable. These standards, and the National Science
Foundation Audit Guide, require that we plan and perform the audit to obtain reasonable
assurance about whether the amounts claimed to NSF as presented in the Schedule of
Award Costs (Schedule A) are free of material misstatement. An audit includes
examining, on a test basis, evidence supporting the amounts and disclosures in the
Schedule of Award Costs. An audit also includes assessing the accounting principles
used and significant estimates made by STCC’s management, as well as evaluating the
overall financial schedule presentation. We believe that our audit provides a reasonable
basis for our opinion.

The Schedule of Questioned Costs (Schedule B) explains the NSF funded costs in the
amount of $195,133 that are questioned as to their allowability under the NSF award
agreement due to the lack of adequately supported claimed cost share and consultant
costs. Questioned costs are (1) costs for which there is documentation that the recorded
costs were expended in violation of the law, regulations or specific conditions of the
award, (2) costs that require additional support by the awardee, or (3) costs that require
interpretation of allowability by the National Science Foundation – Division of Institution
and Award Support (DIAS). NSF will make the final determination as to whether such
costs are allowable. The ultimate outcome of this determination cannot presently be
determined. Accordingly, no adjustment has been made to costs claimed for any
potential disallowance by NSF.

In our opinion, the Schedule of Award Costs (Schedule A) referred to above presents
fairly, in all material respects, the costs claimed on the FCTRs – Federal Share of Net
Disbursements and cost sharing claimed for the period September 1, 1997 to February 28,
2001, in conformity with the National Science Foundation Audit Guide, NSF Grant
Policy Manual, and terms and conditions of the NSF award, and on the basis of
accounting policies described in the Notes to the Financial Schedules. This schedule is
not intended to be a complete presentation of financial position in conformity with
accounting principles generally accepted in the United States of America.

In accordance with Government Auditing Standards and the National Science Foundation
Audit Guide, we have also issued a report dated December 13, 2001, on our tests of
STCC’s compliance with certain provisions of laws, regulations, and the NSF award
terms and conditions, and our consideration of STCC’s internal control over financial
reporting. That report is an integral part of an audit performed in accordance with
Government Auditing Standards and should be read in conjunction with this report in
considering the results of our audit.

This report is intended solely for the information and use of the STCC’s management,
NSF, STCC’s cognizant Federal agency for audit, the Office of Management and Budget,
and the Congress of the United States, and is not intended to be, and should not be used
by anyone other than these specified parties.




Leon Snead & Company, P.C.
Rockville, Maryland 20850
December 13, 2001




                                           7
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE WITH LAWS AND
    REGULATIONS AND INTERNAL CONTROL OVER FINANCIAL
                        REPORTING

We have audited the costs claimed as presented in the Schedule of Award Costs
(Schedule A), which summarizes the financial reports submitted by Springfield Technical
Community College (STCC) to the National Science Foundation (NSF) and claimed
costs sharing for the award listed below, and have issued our report thereon dated
December 13, 2001.

     Award Number                   Award Period                   Audit Period

      DUE-9751990                09/01/97 to 02/28/01          09/01/97 to 02/28/01

We conducted our audit of the Schedule of Award Costs as presented in Schedule A in
accordance with auditing standards generally accepted in the United States of America,
Government Auditing Standards (1994 Revision) issued by the Comptroller General of
the United States, and the National Science Foundation Audit Guide (September 1996),
as applicable. These standards, and the National Science Foundation Audit Guide,
require that we plan and perform the audit to obtain reasonable assurance about whether
the financial schedule is free of material misstatement.

               COMPLIANCE WITH LAWS AND REGULATIONS

Compliance with applicable Federal laws, regulations, and the NSF award terms and
conditions is the responsibility of STCC’s management. As part of obtaining reasonable
assurance about whether the financial schedule is free of material misstatement, we
performed tests of STCC’s compliance with certain provisions of laws, regulations, and
the NSF award terms and conditions, noncompliance with which could have a direct and
material effect on the determination of the financial schedule amounts. However,
providing an opinion on compliance with such provisions was not an objective of our
audit, and accordingly, we do not express such an opinion.




                                         8
The results of our tests disclosed two instances of noncompliance that are required to be
reported under Government Auditing Standards and the National Science Foundation
Audit Guide. These instances of noncompliance are also material internal control
weaknesses and are discussed in Finding Nos. 1 and 2 in the Internal Control Over
Financial Reporting Section of this report. We considered these instances of
noncompliance in forming our opinion of whether the Schedule of Award Costs
(Schedule A) presents fairly in all material respects, the costs claimed by STCC on the
Federal Cash Transactions Reports – Federal Share of Net Disbursements and cost
sharing claimed for the period September 1, 1997 to February 28, 2001, in conformity
with the National Science Foundation Audit Guide (September 1996), NSF Grant Policy
Manual, the Federal Laws and Regulations, and NSF award terms and conditions, and
determined that this report does not affect our report dated December 13, 2001 on the
financial schedule.

            INTERNAL CONTROL OVER FINANCIAL REPORTING

The management of STCC is responsible for establishing and maintaining internal
control. In fulfilling this responsibility, estimates and judgments by management are
required to assess the expected benefits and related costs of internal control policies and
procedures. The objectives of internal control are to provide management with
reasonable, but not absolute assurance that assets are safeguarded against loss from
unauthorized use or disposition, and that transactions are executed in accordance with
management’s authorization and recorded properly to permit the preparation of financial
schedules in accordance with accounting principles prescribed by NSF. Because of
inherent limitations in any internal control, misstatements due to errors or fraud may
nevertheless occur and not be detected. Also, projection of any evaluation to future
periods is subject to the risk that procedures may become inadequate because of changes
in conditions or that the effectiveness of the design and operation of policies and
procedures may deteriorate.

In planning and performing our audit of the Schedule of Award Costs (Schedule A) for
the period September 1, 1997 to February 28, 2001, we considered STCC’s internal
control over financial reporting in order to determine our auditing procedures for the
purpose of expressing our opinion on the financial schedule and not to provide an opinion
on internal control. Accordingly, we do not express such an opinion.

We noted matters described below involving the internal control over financial reporting
and its operation that we consider to be reportable conditions under standards established
by the American Institute of Certified Public Accountants. Reportable conditions involve
matters coming to our attention relating to significant deficiencies in the design or
operation of the internal control over financial reporting that, in our judgment, could
adversely affect STCC's ability to record, process, summarize, and report financial data in
a manner that is consistent with the assertions of management in the financial schedules.
Material weaknesses are reportable conditions in which the design or operation of one or
more of the internal control components does not reduce to a relatively low level the risk
that misstatements in amounts that would be material in relation to the financial



                                            9
schedules being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions.

Our consideration of internal control over financial reporting would not necessarily
disclose all matters related to internal control over financial reporting that might be
reportable conditions and, accordingly, would not necessarily disclose all reportable
conditions that are also considered to be material weaknesses. We believe that the
reportable conditions described below are also material weaknesses.

Finding No. 1 - Lack of Adequate Documentation, Excess Payment of, and
Duplicate Charges for Consultant Costs

STCC could not provide documentation to show how and/or to what extent a consultant’s
work benefited the NSF award. STCC could only provide invoices showing that the
consultant arranged for three meetings between NCTT and industry officials for a total
cost of $35,000 ($5,000 per month from April through November 2000). Current NCTT
and STCC officials were unable to provide additional supporting documentation for us to
assess whether the costs had been reasonable, allocable, and allowable.

In addition, we found that the consultant was paid $1,250 per day, as stated in the
contract agreement between STCC and the consultant, for four days a month over a
seven-month period. The GPM 616.1(c) states that payment for a consultant’s services
may not exceed the daily equivalent of the then current maximum rate paid to an
Executive Schedule Level IV Federal employee unless specifically authorized by law.
Therefore, STCC should have paid the consultant no more than $443 per day for services
rendered.

We also found that STCC charged the same $35,000 in consultant costs also as cost share
to the NSF award. As a result, because STCC did not have supporting documentation
that clearly described how the consulting costs could be perceived as acceptable claimed
costs, and consultant payments exceeded the allowable consultant’s daily rate of pay, we
questioned the entire $35,000 claimed to the award. (We also questioned the same
$35,000 of consultant services costs that STCC claimed as cost sharing to the NSF award.
See Schedule B, Note-2, G.)

Recommendation No. 1

We recommend that NSF’s Division Directors of the Division of Institution and Award
Support (DIAS) and the Division of Grants and Agreements (DGA) ensure that STCC
maintains documentation for all consultant costs that identifies how the consultants’ work
benefits the NSF award; ensures that the consultant payments do not exceed the
maximum allowable daily rate of pay; and institutes proper controls to ensure that costs
charged to the NSF award are not also charged as cost share.




                                           10
Awardee’s Response:

On December 24, 2004, STCC officials responded, through the Commonwealth of
Massachusetts, to the revised draft audit report and provided additional information that
they have established a new control that no contract will be paid at a rate higher than
allowable by the funding agencies as reflected in the Grants Manual.

Auditor’s Comments:

STCC’s comments appear partially responsive to the recommendation. The finding
cannot be resolved until NSF verifies that the proposed corrective actions have been
satisfactorily implemented and all recommendations have been adequately addressed.

Finding No. 2 — Cost-Sharing Provisions Not Fully Met

                             Initial Review of Cost Sharing

During our initial review of cost sharing in the Fall of 2001, we found that STCC did not
have a system in place, which included written policies and procedures, for recording,
monitoring, documenting, and reporting its institution and its subcontractors’ required
cost sharing on the NSF award. As a result, we found that STCC failed to fully comply
with the cost-sharing requirements set forth in the NSF award letter. (In July 2004, we
conducted a follow-up review of cost sharing documentation provided after our initial
audit fieldwork. We found that although STCC had taken steps to establish a cost-
sharing system, the awardee could not support $260,186 of claimed cost sharing, and
claimed questionable and inadequately supported cost sharing of $266,031, that is a total
of $526,217 or 29 percent questionable cost sharing of the $1.7 million claimed. See
Follow-up Review of Cost Sharing and Schedule B, Note B-2.)

As a condition of the NSF award, STCC along with two of its subcontractors agreed to
provide cost sharing on the award. The awardee proposed that cost sharing would be
provided in the areas of salaries and wages, academic equipment, use of consultants,
travel, seminars/workshops, participant support costs, and indirect costs. STCC agreed to
cost share $1,500,000 for its institution ($500,000 during each of the three years of the
award period). In addition, STCC was responsible for ensuring that one subcontractor,
the New England Board of Higher Education (NEBHE), provide cost sharing of $30,000
($10,000 per year for the three years of the award), and the other subcontractor, Hudson
Valley Community College (HVCC) provide cost sharing of $200,000 on the award.
Therefore, STCC was responsible for ensuring that a total of $1,730,000 of cost sharing
was provided on the NSF-funded project. The NSF award letter also stated that if the
subcontractors failed to meet their promised cost sharing, STCC should not reimburse the
subcontractors in full for their work on the project. The award letter further required
STCC to document cost sharing (on an annual and cumulative basis), certify the cost
sharing by an authorized institutional representative, and report cost sharing to NSF as a
part of the annual progress and final progress reports. Office of Management and Budget
(OMB) Circular A-110, Subpart C, Paragraph .23(a) on cost sharing or matching
requires, in part, that cost sharing must be verifiable from the recipient’s records.


                                           11
Similarly, NSF’s Grant Policy Manual (GPM) 333.6(a) states awardees shall maintain
records of costs that are claimed as being their contribution to cost participation, and
further states that these records are subject to audit.

However, we found that STCC did not have a system to identify, track, and report cost
sharing. Specifically, STCC failed to (1) provide a summary and supporting
documentation for $1.5 million of cost sharing that it had certified to NSF, (2) ensure that
one subcontractor met its required cost sharing of $30,000 and certify that another
subcontractor had met only a portion of its required cost sharing of $200,000, (3) reduce
its subcontractors’ reimbursement for services performed on the award because their
cost-sharing requirement had not been fully met, and (4) certify its and its subcontractor’s
cost-shared amounts as part of the annual progress and final project reports submitted to
NSF.

(1) STCC’s $1.5 Million of Required Cost Sharing. The NSF award required STCC to
    cost share $1.5 million, separately from the $230,000 cost sharing that its
    subcontractors were required to provide. During our audit, we found that STCC had
    difficulty providing a summary and documentation to support the $1.5 million of cost
    sharing that it certified to NSF in a letter dated July 12, 2001. STCC officials spent a
    considerable amount of time compiling cost-shared summaries and documents during
    the audit to satisfy the $1.5 million of cost sharing certified to NSF. Three days
    before the completion of our audit fieldwork, Northeast Center for
    Telecommunications Technology (NCTT) and STCC officials provided an updated
    listing of cost-shared items totaling $1,471,878 along with some supporting
    documentation, which was $28,122 less than the $1.5 million certified to NSF.
    Given the amount of time STCC required to prepare the cost-sharing schedules, we
    were unable to substantiate the awardee’s $1.5 million of claimed cost sharing at the
    time of our audit, and therefore questioned the entire amount claimed.

(2) Subcontractors’ $230,000 of Required Cost Sharing. In addition to its own cost-
    sharing requirement of $1.5 million, the NSF award letter required STCC to ensure
    that NEBHE and HVCC, two subcontractors, cost share $30,000 and $200,000,
    respectively. We found that STCC did not monitor or document NEBHE and
    HVCC’s progress in meeting their required cost sharing. Therefore during the audit,
    we contacted the two subcontractors to review the records and documentation each
    had to support the required cost sharing. We found that NEBHE did not meet any of
    its required cost sharing of $30,000, while HVCC did not fully meet its required cost
    sharing of $200,000. The Director of Administration and Finance at NEBHE stated
    that he was unaware of the cost-sharing requirement on the award. HVCC officials
    provided documentation to support $167,543 of their required $200,000 of cost
    sharing, falling short of the requirement by $32,457.            Therefore, STCC’s
    subcontractors failed to provide a total of $62,457, or 27 percent, of their $230,000
    cost-sharing obligation.

(3) Subcontractors’ Reimbursement.     The NSF award letter stated that if the
    subcontractors failed to meet their promised cost sharing, STCC should not



                                            12
    reimburse the subcontractors in full for their work on the NSF-funded project.
    However, we found that over the three-year award period, STCC reimbursed
    NEBHE and HVCC a total of $460,338 and $144,038, respectively. These amounts
    were full payments for work performed on the award, although the subcontractors
    did not fully meet their required cost sharing.

(4) Cost-Sharing Certifications. The NSF award letter required STCC to certify its and
    the two subcontractors’ cost sharing as part of the annual progress and final progress
    reports submitted to NSF. However, we found that STCC did not provide these
    periodic cost-sharing certifications, and in July 2001 (approximately four months
    after the expiration of the award) certified only to its $1.5 million portion of the cost-
    sharing commitment. In addition, STCC failed to certify HVCC’s progress in
    meeting its cost sharing as part of these same reports.

The lack of a system in place for cost sharing led STCC to not fully comply with the
award’s cost-sharing provisions. When asked why the cost-sharing provisions set forth in
the award letter were not fully adhered to, current NCTT and STCC officials could not
provide an explanation for the lack of oversight by the former Principal Investigator (PI)
during the three-year award period. STCC had assigned the responsibility of complying
with the cost-sharing requirements to the PI. In its March 2002 written response to our
initial draft report findings, STCC acknowledged (1) reporting errors that had been made
by the former PI to NSF, (2) the lack of certifications to NSF and detailed cost-sharing
documentation, and (3) not requiring subcontractors to provide cost sharing data.

Meeting the award’s cost-sharing requirements is important to ensuring that the overall
project goals are met. At the end of our initial audit, we believed that STCC needed to
develop and implement a cost-sharing system supported by written policies and
procedures to ensure compliance with NSF and other Federal requirements. At the end of
our return visit to the awardee in July 2004, we found that STCC had taken steps to
establish such a cost-sharing system. Nevertheless, we found inadequately supported and
questionable cost sharing. See Follow-up Review of Cost Sharing for a discussion on the
results of our follow-up review, and Schedule B, Note B-2 for discussions related to
unsupported, inadequately supported, and questionable cost sharing.)

                      Result of the Follow-up Review of Cost Sharing

We performed a follow-up review in July 2004 to determine if STCC (1) could provide
adequate supporting documentation for $1,792,327 of cost sharing provided after our
initial audit fieldwork, and (2) had a system in place to track, monitor, report, and
document cost sharing for its current and future NSF awards. Of the $1.4 million in cost
sharing that we tested, we found that STCC could not provide any support for $260,186,
and also claimed questionable and inadequately supported cost sharing of $266,031. As a
result, we deemed $526,217 or 29 percent of $1.7 million of cost sharing claimed as
questionable. (See Schedule B, Note B-2 detailing the questionable cost sharing of
$526,217, and the resulting questioned cost impact on the NSF-funded costs). We also
determined that STCC had taken steps to establish and implement a cost-sharing system,



                                             13
which is detailed in the awardee’s Grants Manual. The manual includes STCC’s cost-
sharing policies and procedures related to (1) staff salaries, (2) equipment donations, (3)
volunteer donated time and consultation, (4) communication costs, (5) travel costs, (6)
STCC equipment match, (7) waived indirect costs, (8) monitoring and reporting of
subcontractors’ cost sharing, and (9) reporting to agencies.

However, additional actions are needed to address two aspects of the material internal
control weakness related to cost-shared staff salaries, and maintenance of supporting
documentation for other cost sharing.

(1) Cost-Shared Staff Salaries. We found that STCC did not require after-the-fact labor
    effort certification for employees whose salary was claimed as cost sharing on the
    NSF award. Cost-shared salaries represented approximately 23.8 percent of the total
    $1.7 million claimed as cost sharing. OMB Circular A-21, Section J.10.b.(2) (b)
    requires that any of the acceptable methods for documenting the distribution of
    salaries and wages must recognize the principle of after-the-fact confirmation that
    costs distributed to an award represent actual costs. At the beginning of each grant
    year, STCC prepared a release memorandum indicating the percentage of time an
    employee would be cost-shared or released to work on an award. However, STCC
    did not require after-the-fact confirmation of the time actually worked on the award.
    (We did not question the cost-shared salary costs not supported with after-the-fact
    certifications because we satisfied ourselves through discussions and reviews of
    other documents that it appeared the staff worked on the NSF project). STCC
    officials stated that they were not aware of the OMB requirement, but promptly
    revised their Grants Manual to state that any STCC employee whose salary is
    included as a match on a grant must provide the project director with a certification
    memorandum every six months over the life of the grant stating that the time was
    spent in accordance with the agreed upon release percentage. STCC also requires
    that the certification memorandum summarize all services performed in meeting the
    award objectives. 1

(2) Supporting Documentation for Other Cost Sharing. We found that STCC did not
    always maintain documentation for cost sharing. NSF’s GPM Section 333 states
    that a grantee shall maintain records of all costs claimed as cost sharing and those
    records are subject to audit. In addition, OMB Circular A-110, Subpart C, Paragraph
    .23(a) requires that cost sharing must be verifiable from the recipient’s records. Of
    the $1.4 million of cost sharing we tested, STCC could not support $260,186
    primarily related to in-kind contributions from a partner high school. NCTT and
    STCC officials made a concerted effort to locate the supporting documentation for
    the cost sharing during our follow-up review. The officials, however, were unable to
    obtain the supporting documentation from the partner high school because the school
    was closed for the summer in July 2004 during our site visit. (NCTT officials
    planned to follow-up with the high school officials in August 2004 when key
1
  In contrast to cost-shared salaries, we determined that STCC did require and maintain
after-the-fact certifications for salaries funded with NSF funds.


                                            14
    personnel returned from summer vacation.) When asked why amounts were claimed
    as cost sharing that could not be supported, current NCTT and STCC officials had
    no explanations for the documentation not being maintained, and reiterated that the
    responsibility for cost sharing during the three-year award had been the
    responsibility of the former PI.

In general, when an awardee fails to certify salaries and wages claimed as cost sharing or
maintain documentation for cost sharing, the allowability, allocability, and
reasonableness of the cost sharing is questionable, and provides NSF with less assurance
about the project’s overall level of success as anticipated when the award was made. We
considered the lack of labor effort certification of cost-shared staff salaries and other
supporting documentation to be material internal control weaknesses because salaries
comprised approximately 23.8 percent of the $1.7 million claimed as cost sharing, and
similarly approximately 17.7 percent of the $1.4 million of cost sharing we tested was not
supported with documentation. If STCC fails to implement corrective action to address
these material internal control weaknesses, similar problems may continue to occur on
other existing and future NSF awards. As of August 2004, STCC had three active NSF
awards totaling approximately $3.7 million, and the awardee agreed to provide cost
sharing of approximately $1.7 million on one of the awards.

Recommendation No. 2

We recommend that NSF’s Division Directors of DIAS and DGA require that STCC
strictly adhere to its current system to account for, monitor, adequately document, and
report cost sharing as described in its Grants Manual to ensure compliance with NSF
award and other Federal requirements for current and future NSF awards. STCC’s cost-
sharing system should include provisions for maintaining after-the-fact labor effort
certifications and supporting documentation.

Awardee’s Response:

On December 24, 2004 STCC officials responded, through the Commonwealth of
Massachusetts to the revised draft audit report and provided additional information that
they believed should decrease the total questioned costs. STCC recommended seven
adjustments to Schedule A that reduced the questioned cost shares by $280,923 from
$314,171 to $32,248. They requested an adjustment of $133,082 based on additional
documentation from the Minuteman Regional High School. They also requested that cost
shares be allowed for fringe benefits of 25.3 percent of the direct salaries claimed for cost
sharing and for indirect costs of 30 percent of direct salaries. In addition, they requested
that cost shares be allowed for the $35,000 fee paid a consultant and for salaries paid the
NCTT chief operations officer and the Co-PI because these cost were for program
purposes. STCC requested that a more accurate percentage of 63.4 percent be used in
calculating the percentage of allowable NSF funding on Schedule A instead of the 63
percent used.




                                             15
STCC also responded that since November 2004, they have established in the revised
Grants Manual new controls:

   •   that has put in place a system to track labor cost charged to grants. After-the-fact
       labor effort certifications and supporting documentation is now required on all
       grants, as reflected in the revised Grants Manual;

   •   that require adequate documentation for all cost sharing and that costs charged to
       cost sharing are allowable under the award;

   •   that no payments will be made to sub awardees unless adequate documentation
       supporting cost sharing is received, as stated in the Grants Manual;

   •   that no contract will be paid at a rate higher than allowable by the funding agency,
       as reflected in the Grants Manual; and

   •   that they will identify state and private grants used to support cost sharing and
       ensure that the grants are used for the intended purpose.

Auditor’s Comments:

STCC’s comments related to the internal control and compliance findings appear
responsive to the recommendation. However, the findings cannot be resolved until NSF
verifies that the proposed corrective actions have been satisfactorily implemented and all
recommendations have been adequately addressed.

We reviewed the additional documentation submitted by STCC to support their request
for adjustments to Schedule A. The request for an adjustment of $133,082 in allowable
cost sharing disclosed that the additional documentation had not been reviewed and
approved by the principal investigator. Therefore, we cannot accept these invoices as
support for cost sharing. We agree that fringe benefits and indirect costs are allowable
costs for cost sharing. However, we limited these rates to the rate that STCC used for its
claim for fringe benefits and indirect costs as shown on Schedule A. STCC did not
provide additional documentation in support of the adjustments for the $35,000 fee paid a
consultant, and for salaries paid the NCTT chief operations officer ($9,439) and the Co-
PI ($11,426). We agree with STCC’s request to use the more accurate percentage of
63.4%.

Based on the additional documentation submitted, we concluded that additional cost
shares totaling $161,407 for fringe benefits and indirect costs met the cost sharing
requirements of the award. As a result, we have increased the allowable cost sharing
from $1,266,110 to $1,427,517 and reduced the questioned NSF funding from $314,172
to $195,133. (See Schedule B, Note 2 detailing the questionable cost sharing and the
resulting questioned cost impact on the NSF-funded costs.)




                                           16
We considered this internal control weakness in forming our opinion of whether the
Schedule of Award Costs (Schedule A) presents fairly, in all material respects, the costs
claimed by STCC on the Federal Cash Transactions Reports - Federal Share of Net
Disbursements and cost sharing claimed for the period September 1, 1997 to February 28,
2001, in conformity with the National Science Foundation Audit Guide (September
1996), NSF Grant Policy Manual, the Federal Laws and Regulations, and NSF award
terms and conditions, and determined that this report does not affect our report dated,
December 13, 2001, on the financial schedule.

This report is intended solely for the information and use of the STCC’s management,
NSF, the cognizant Federal agency for audit, the Office of Management and Budget, and
the Congress of the United States, and is not intended to be and should not be used by
anyone other than these specified parties.




Leon Snead & Company, P.C.
Rockville, MD 20850
December 13, 2001




                                           17
                                                                                                                          Schedule A
                                               Springfield Technical Community College
                                       National Science Foundation Award Number DUE-9751990
                                                        Schedule of Award Costs
                                                 September 1, 1997 to February 28, 2001

                                                                                              Claimed
                                                           (A)                               Costs After      Questioned Costs
                                        Approved         Claimed            Reclassi-         Reclassi-                  Schedule
Cost Category                            Budget           Costs             fications         fications     Amount      Reference

Direct Costs
 Salaries and Wages                      $ XXXX          $    XXXX      $         XXX     $        XXXX     $     XXX
 Fringe Benefits                           XXXXX              XXXX                XXX             XXXX            XXX
 Equipment                                  XXXX                XX                XXX              XXX            XXX
 Travel – STCC                              XXXX              XXXX                XXX            XXXXX            XXX
 Travel – National Advisory Board            XXX             XXXXX                XXX            XXXXX            XXX

 Other Direct Costs
   Materials and Supplies                  XXXXX           XXXX                   XXX           XXXXXX            XXX
   Publications Costs                       XXXX            XXX                   XXX              XXX            XXX
   Consultant Services                     XXXXX         XXXXXX                   XXX           XXXXXX          XXXXX                  B-1

 Subcontractors
   NEBHE                                 XXXXXX          XXXXXX                   XXX           XXXXXX            XXX
   MRTSHS                                 XXXXX           XXXXX                   XXX            XXXXX            XXX
   HVCC                                  XXXXXX          XXXXXX                   XXX           XXXXXX            XXX

 Evaluation                              XXXXXX          XXXXXX                   XXX           XXXXXX            XXX
 Communications                            XXXX           XXXXX                   XXX            XXXXX            XXX
 Workshops                               XXXXXX          XXXXXX                   XXX           XXXXXX            XXX
 Beta Sites                              XXXXXX          XXXXXX                   XXX           XXXXXX            XXX
 Professional Tradespeople                  XXX            XXXX                   XXX             XXXX            XXX

                  Total Direct Costs    $ 2,815,032     $ 2,760,357     $         XXX    $      2,760,357   $    35,000

Indirect Costs                              184,968          184,968              XXX             184,968         XXX

                         Total Costs    $ 3,000,000     $ 2,945,325     $         XXX    $      2,945,325   $    35,000


Cost Sharing                            $ 1,730,000     $ 1,792,327     $         XXX    $      1,792,327   $ 195,133                  B-2



(A) The total representing costs claimed agreed with the expenditures reported on Federal Cash
    Transactions Report - Federal Share of Net Disbursements as of the quarter ended March 31, 2001.
    Claimed costs reported above are taken directly from Springfield Technical Community College's
    books of accounts. See Schedule B and accompanying notes to this financial schedule.




                                                                   18
                                                                                       Schedule B

                         Springfield Technical Community College
                National Science Foundation Award Number DUE – 9751990
                               Schedule of Questioned Costs
                       From September 1, 1997 to February 28, 2001

1. Consultant Services - $35,000

   STCC could not provide documentation to show how and/or to what extent a
   consultant’s work benefited the NSF award. STCC could only provide invoices
   showing that the consultant arranged for three meetings between NCTT and industry
   officials for a total cost of $35,000 ($5,000 per month from April through November
   2000). Current NCTT and STCC officials were unable to provide additional
   supporting documentation for us to assess whether the costs had been reasonable,
   allocable, and allowable.

   In addition, we found that the consultant was paid $1,250 per day, as stated in the
   contract agreement between STCC and the consultant, for four days a month over a
   seven-month period. The GPM 616.1(c) states that payment for a consultant’s
   services may not exceed the daily equivalent of the then current maximum rate paid
   to an Executive Schedule Level IV Federal employee unless specifically authorized
   by law. Therefore, STCC should have paid the consultant no more than $443 per day
   for services rendered.

   As a result, because STCC did not have supporting documentation that clearly
   described how the consulting costs could be perceived as acceptable claimed costs,
   and consultant payments exceeded the allowable consultant’s daily rate of pay, we
   questioned the entire $35,000 claimed to the award. (We also questioned the same
   $35,000 of consultant services costs that STCC claimed as cost sharing to the NSF
   award. See Schedule B, Note-2, G. below.)

2. $314,172 Questioned NSF Funding (due to $526,217 Questionable Cost Sharing)

   During our initial review of cost sharing in the Fall of 2001, we found that STCC did
   not have a system in place, which included written policies and procedures, for
   recording, monitoring, documenting, and reporting its institution’s and its
   subcontractors’ required cost sharing on the NSF award. As a result, current NCTT
   and STCC officials had difficulty providing a summary of cost sharing along with
   supporting documentation that the awardee had certified to NSF as being met. Three
   days before the completion of our audit fieldwork, NCTT and STCC officials
   provided a listing of cost-shared items totaling $1,471,878 along with some
   supporting documentation, which was $28,122 less than the $1.5 million certified to
   NSF. Therefore, at the time of our initial audit, STCC failed to provide a summary
   with documentation to support the $1.5 million in cost sharing that it had certified to




                                           19
  NSF as being met, and the $1.4 million of cost sharing provided during the audit was
  not provided to us in a timely manner for an adequate review.

  In an effort to provide useful information to NSF management on STCC’s cost
  sharing, in July 2004 we (along with two representatives from NSF’s Office of
  Inspector General) returned to STCC and conducted a follow-up review of $1.7
  million of claimed cost sharing that the awardee provided in response to our initial
  draft audit report. Of the $1.7 million claimed as cost sharing, we selected a sample
  and tested $1.4 million during our return visit. We found that STCC could not
  provide supporting documentation for $260,186 and included questionable and
  inadequately supported cost sharing of $266,031. Therefore, we found a total of
  $526,217 questionable cost sharing as summarized in detail below:

Costs Not Supported With Documentation                          Dollar Amount     Note

           Year 1 (June 1997 through August 1998)

Employee Salary Costs – XXXXXXXX                               $    2,022.60       A.
Minuteman Regional High School                                     56,300.00       B.
Microsoft                                                           3,322.00       C.

        Year 2 (September 1998 through August 1999)

Employee Salary Costs                                                3,708.10      A.
Minuteman Regional High School                                     180,000.00      B.

        Year 3 (September 1999 through August 2000)

Employee Salary Costs                                                3,708.10      A.
Campus Performance Improvement Program Grant –                      11,125.00      D.
     Curriculum Development
                                                      Subtotal $ 260,185.80

Questionable and Inadequately Supported Costs

           Year 1 (June 1997 through August 1998)

Interior Office Furniture                                      $     19,605.42     E.
New NCTT Facility - Renovation                                      200,000.00     E.

        Year 3 (September 1999 through August 2000)

Employee Salary Costs – XXXXXXXXXXXXX                                11,425.50     F.
Consulting Services                                                  35,000.00     G.

                                                      Subtotal $ 266,030.92

                     Grand Total of Questionable Cost Sharing $ 526,216.72




                                          20
A. Employee Salary Costs. STCC was unable to provide documentation to support
   $9,439 claimed as cost-shared salary cost for an employee who served as an
   XXXXXXXX over the three-year period of the award.

   Office of Management and Budget (OMB) Circular A-110, Subpart C, Paragraph
   .23(a) on cost sharing or matching requires in part that cost sharing must be
   verifiable from the recipient’s records. Similarly, NSF’s Grant Policy Manual
   (GPM) 333.6(a) states awardees shall maintain records of costs that are claimed
   as being their contribution to cost participation, and the GPM further states that
   these records are subject to audit.

   Therefore, we identified $9,439 of questionable employee salary costs that STCC
   claimed as cost sharing for the three-year period of the award.

B. Minuteman Regional High School. STCC was unable to provide documentation
   to support $56,300 and $180,000 for Year 1 and Year 2, respectively, for costs
   incurred by Minuteman Regional High School, a partner school in the NSF-
   funded telecommunications technology project. For Year 3 of the award, STCC
   provided documentation to support $22,800 of cost sharing provided by
   Minuteman Regional High School, but could not provide support for $236,300
   claimed as cost sharing in the first two years of the award. Current NCTT and
   STCC officials stated that they would try to obtain the documentation from
   Minuteman Regional High School officials in August 2004 when key personnel
   returned from summer vacation.

   As we mentioned in Note A. above, OMB Circular A-110 requires that cost
   sharing must be verifiable from the awardee’s records, and the GPM states
   awardees shall maintain records of cost sharing, which are subject to audit.

   Therefore, we identified $236,300 of questionable cost sharing claimed by STCC
   for the partnering activities of Minuteman Regional High School.

C. Microsoft Corporation. STCC could not provide supporting documentation for
   $3,322 of the $10,000 claimed as cost sharing provided by Microsoft Corporation.
   STCC provided documentation supporting $6,678 for Microsoft Corporation’s
   donation of software and press titles. A NCTT official provided a rough estimate
   related to weekly administrative costs for the remaining $3,322, but was unable to
   provide any additional support for the costs.

   As we mentioned in Note A. above, OMB Circular A-110 requires that cost
   sharing must be verifiable from the awardee’s records, and the GPM states
   awardees shall maintain records of cost sharing, which are subject to audit.
   Therefore, we identified $3,322 of questionable cost sharing claimed by STCC for
   donations made by Microsoft Corporation.




                                       21
D. Campus Performance Improvement Program (CPIP) Grant. STCC provided
   documentation that did not fully support the amount claimed as cost sharing for a
   CPIP grant. The awardee claimed cost sharing of $140,000 for curriculum
   development under the CPIP grant, which was a State of Massachusetts grant to
   develop a prototype for cost-effective, pedagogically sound, delivery method of
   technical courses. STCC provided documentation supporting costs of $128,875,
   which fell short of the claimed cost-shared amount by $11,125.

   As we mentioned in Note A. above, OMB Circular A-110 requires that cost
   sharing must be verifiable from the awardee’s records, and the GPM states
   awardees shall maintain records of cost sharing, which are subject to audit.

   Therefore, we identified $11,125 of questionable cost sharing claimed by STCC
   for the CPIP grant.

E. Office Furniture and Renovation. STCC claimed office furniture and renovation
   costs as cost sharing in Year 1 of the award for furnishing and renovating the
   office space used for the NCTT. STCC provided supporting documentation for
   $18,371.42 of the $19,605.42 claimed for office furniture and $30,715.05 of the
   $200,000 claimed for renovation. Despite the fact that STCC could provide
   supporting documentation for $49,086.47 of the claimed office furniture and
   renovation costs, we questioned all of the claimed office furniture and renovation
   costs because the NSF program announcement stated that NSF project funds may
   not be used for (1) general utility items such as office equipment, benches, tables,
   desks, chairs, storage cases and routine supplies, and (2) the modification or
   construction of laboratories or other buildings. We confirmed with the cognizant
   NSF program officer that the program announcement specific restrictions also
   applied to cost-shared funds.

   Therefore, we identified $219,605.42 of questionable cost sharing claimed by
   STCC for office furniture and renovation.

F. Employee Salary Costs. STCC claimed salary costs for the NCTT XXXXX
   XXXXXXXXXXX of $45,702 during Year 3 of the award based on a 100 percent
   release from his normal teaching schedule to work on the NCTT project.
   However, the release memorandum for XXXXX, which had been signed at the
   beginning of the academic year by the XXXXXXXXXXXXXXXXXXXXX, only
   supported a release time of 75 percent. We therefore identified 25 percent or
   $11,426 of questionable cost sharing claimed by STCC for salary costs.

G. Consulting Services. (See Schedule B, Note B-1 above.)




                                        22
On December 24, 2004 STCC responded, through the Commonwealth of Massachusetts
to the revised draft audit report and provided additional information that it believed
should decrease the total questioned costs. STCC recommended seven adjustments to
Schedule A that reduced the questioned cost shares by $280,923 from $314,171 to
$32,248.

       1. An adjustment of $133,082 in allowable cost sharing supported by additional
          documentation from Minuteman Regional High School.

       2. An adjustment of $103,370 in allowable cost sharing for fringe benefits of
          25.3% of direct salaries totaling $408,742. An amount for fringe benefits was
          omitted from the original cost-sharing schedule submitted in March of 2002.

       3. An adjustment of $122,623 in allowable cost sharing for indirect costs of 30%
          of direct salaries totaling $408,742.

       4. An adjustment of $35,000 for the consultant because this cost was incurred to
          support the program.

       5. An adjustment of $9,439 for the NCTT XXXXXXXXXXXXX because he did
          perform the duties during the grant period.

       6. An adjustment of $11,426 for XXXXX who performed duties during the grant
          period.

       7. An adjustment of $17,748 for questioned cost sharing by using a more
          accurate percentage of 63.4% instead of the 63% used by the auditors in
          calculating the percentage of allowable NSF funding on Schedule A.

We reviewed the additional documentation submitted by STCC to support their request
for adjustments to Schedule A. The following are the results of our review:

       1. The request for an adjustment of $133,082 in allowable cost sharing disclosed
          that the additional documentation had not been reviewed and approved by the
          principal investigator. Also, the documentation did not contain a certification
          or statement from an official of the Minuteman Regional High School that the
          work, materials, and other services covered by these invoices had been
          performed in support of the grant project. Therefore, we cannot accept these
          invoices as support for cost sharing.

       2. The request to allow cost share of $103,370 based on a fringe benefit rate of
          25.3% of direct salaries totaling $408,742 disclosed that $60,903 could be
          supported. We agree that fringe benefits are an allowable cost share;
          however, the fringe benefit rate for cost sharing should be limited to the rate
          that STCC used for its claim for direct fringe benefits. Schedule A showed
          that STCC claimed direct salaries and wages totaling $753,749 and claimed



                                           23
   fringe benefits totaling $112,589, a fringe benefit rate of 14.9% of direct
   salaries and wages. Applying this rate to the cost sharing direct salaries of
   $408,742, allowable fringe benefits would total $60,903.

3. The request to allow cost shares of $122,623 based on an indirect cost rate of
   30% of direct salaries totaling $408,742 disclosed that $100,504 could be
   supported. We agree that indirect costs are an allowable cost share; however
   the indirect cost rate for cost sharing should be limited to the rate that STCC
   used for its claim for indirect costs. According to the grant budgets, indirect
   costs were based on direct salaries and fringe benefits. Schedule A showed
   that STCC claimed indirect cost totaling $184,968 and salaries and fringe
   benefits totaled $866,338, an indirect cost rate of 21.4%. Cost share salaries
   totaled $408,742 and allowable fringe benefits totaled $60,903, a total of
   $469,645 X 21.4% = $100,504 allowable indirect costs.

4. The request to allow cost share of $35,000 for the consultant because the cost
   incurred was in support of the program disclosed that no additional supporting
   documentation was provided. Since STCC did not have documentation to
   support that work was performed and the daily payments of $1,250 exceeded,
   at that time, the Federal daily payment limitation of $443, we continue to
   question the cost shares claimed for the payments totaling $35,000 made to a
   consultant.

5. The request to allow cost share of $9,439 for XXXXXXXXXXXXXXXXX
   because he did perform the duties during the grant period disclosed that no
   additional supporting documentation was provided. STCC did not have
   additional documentation supporting that work was performed on the project
   and the amount of salary earned performing this work. Therefore, we
   continue to question the $9,439 claimed as cost shares for XXXXX
   XXXXXXXXX.

6. The request to allow cost share of $11,426 for XXXXX because XX
   performed the duties during the grant period disclosed that no additional
   supporting documentation was provided. STCC had documentation from
   XXXXXXXXXXXXXXXXXXXXXXX that the Co-PI received a 75%
   release from XX normal teaching duties so XX could work on the NCTT
   project. However, no after-the-fact certification or other documentation was
   provided. Without additional documentation, we continue to question the
   $11,426 claimed as cost shares for XXXXX.

7. The request to allow cost share of $17,748 based on a more accurate
   percentage for calculating the allowable NSF funding. STCC pointed out that
   we rounded the percentage down to 63% while they used a more accurate
   percentage of 63.4%. STCC added that this change in calculation reduced the
   questioned cost by $17,748. We agree with STCC’s request to use the more
   accurate percentage of 63.4%.



                                    24
Based on the additional documentation submitted, we concluded that additional cost
shares totaling $161,407 for fringe benefits and indirect costs met the cost sharing
requirements of the award. As a result of this review, we have increased the allowable
cost sharing from $1,266,110 to $1,427,517 and reduced the questioned NSF funding
from $314,172 to $195,133.

                                                 PREVIOUS            REVISED
                                                 AMOUNTS             AMOUNTS

Budgeted NSF Funding                             $3,000,000 63%      $3,000,000 63.4%
Plus: Budgeted STCC Cost Sharing                  1,730,000 37%       1,730,000 36.6%
Total Program Budget                             $4,730,000          $4,730,000

Claimed NSF Funding                              $2,945,325          $2,945,325
Less: Questioned NSF Funding                      ( 35,000)           ( 35,000)
Allowable NSF Funding                            $2,910,325 (a)      $2,910,325 (a)

Claimed Cost Sharing                             $1,792,327          $1,792,327 *
Less: Questioned Cost Sharing                    ( 526,217)          ( 526,217)
Add: Allowable Cost Shares
   Additional Documentation – Item No. 1                                      0
   Fringe Benefits – Item No. 2                                          60,903
   Indirect Costs – Item No. 3                                          100,504
   Consultant Costs – Item No. 4                                              0
   XXXXXXXXXXXXX– Item No. 5                                                  0
   XXXXXX – Item No. 6                                                        0
Allowable Cost Sharing                           $1,266,110 (b)      $1,427,517 (b)

Total Program Costs Incurred (a) + (b)           $4,176,434          $4,337,842

Allowable NSF Funding (63% of $4,176,434)        $2,631,153
                    (63.4% of $4,337,842)                            $2,750,192

Costs Claimed by STCC                            $2,945,325          $2,945,325
Less: Maximum Allowable NSF Funding               (2,631,153)        (2,750,192)
Questioned NSF Funding (due to $526,217
Questionable Cost Sharing)                       $ 314,172 (c)       $ 195,133 (c)


(See Finding and Recommendation No.2 in the Independent Auditors’ Report on
Compliance With Laws and Regulations and Internal Control Over Financial Reporting.)

* We did not restate the amount of claimed cost sharing.




                                           25
                                                                      Schedule C


                   Springfield Community College
         Summary Schedules of Award Audited and Audit Results
             From September 1, 1997 to February 28, 2001

                           Summary of Award Audited


        Award Number                      Award Period                Audit Period

         DUE-9751990                 09/01/97 – 02/28/01          09/01/97 – 02/28/01



   Award             Type of                        Award Description
   Number            Award

                                  The purpose of the award was to fund “The Northeast
DUE-9751990           Grant       Center for Telecommunications.” The goals and
                                  objectives of the project were to increase the number of
                                  trained persons in the competitive telecommunications
                                  industry.


                   Summary of Questioned Costs by Award

  NSF Award            Award                             Questioned        Unsupported
   Number              Budget        Claimed Costs         Costs              Costs

 DUE-9751990         $3,000,000       $2,945,325           $230,133             $0


                 Summary of Questioned Costs by Explanation

                                                                              Internal
                                                                              Control
                               Questioned    Unsupported       Non-         Weaknesses
       Condition                 Cost           Costs        compliance     (Reportable/
                                                                              Material
                                                                            Weakness?)
1. STCC did not have            $35,000            $0            Yes          Material
   supporting
   documentation that
   clearly described how
   the consulting costs


                                     26
                                                                              Internal
                                                                              Control
                               Questioned     Unsupported      Non-         Weaknesses
         Condition               Cost            Costs       compliance     (Reportable/
                                                                              Material
                                                                            Weakness?)
     could be perceived as
     acceptable claimed
     costs, and the
     consultant payments
     exceeded the allowable
     Federal daily rate of
     pay to a consultant.
2.   STCC could not             $195,133           $0              Yes        Material
     support $260,186 of
     cost sharing, and
     claimed questionable
     and inadequately
     supported cost sharing
     of $266,031, which led
     us to question
     $314,171 of the NSF-
     funded costs.
     Additional
     documentation was
     submitted by STCC.
     As a result, questioned
     costs were reduced to
     $195,133.

      Summary of Non-Compliance Issues and Internal Control Weaknesses


                                                                          Is Internal
                                        Non-            Internal            Control
             Condition                compliance        Control          Weaknesses
                                                                         Material or
                                                                         Reportable?
 Thirty five thousand dollars in            Yes           Yes              Material
 consultant costs were questioned
 because STCC could not provide
 documentation to show how and/or
 to what extent a consultant’s work
 benefited the award and the
 consultant payments exceeded the
 maximum allowable consultant’s
 daily rate of pay.


                                      27
                                                              Is Internal
                                       Non-       Internal      Control
           Condition                 compliance   Control    Weaknesses
                                                             Material or
                                                             Reportable?
                                          Yes       Yes        Material
STCC could not support $260,186
of cost sharing, and claimed
questionable and inadequately
supported cost sharing of
$266,031, which led us to question
$314,171 of the NSF-funded costs.
In addition, STCC did not require
after-the-fact certification for
employees whose salary was
claimed as cost sharing on the
award. Additional documentation
was submitted by STCC. As a
result, questioned costs were
reduced to $195,133.




                                     28
                     Springfield Technical Community College
                          Notes to the Financial Schedules
                    From September 1, 1997 to February 28, 2001


Note 1. Summary of Significant Accounting Policies

Accounting Basis

The accompanying financial schedules have been prepared in conformity with National
Science Foundation (NSF) instructions. Schedule A has been prepared from the reports
submitted to NSF. The basis of accounting used in the preparation of these reports differs
from generally accepted accounting principles. The following summarizes these
differences:

A. Equity

Under the terms of the award, all funds not expended according to the award agreement
and budget at the end of the award period are to be returned to NSF. Therefore, the
awardee does not maintain any equity in the award and any excess of cash received from
NSF over final expenditures is due back to NSF.

B. Equipment

Equipment is charged to expense in the period during which it is purchased instead of
being recognized as an asset and depreciated over its useful life. As a result, the expenses
reflected in the Schedule of Award Costs include the cost of equipment purchased during
the period rather than a provision for depreciation.

Except for awards with nonstandard terms and conditions, title to equipment under NSF
awards vests in the recipient, for use in the project or program for which it was acquired,
as long as it is needed. The recipient may not encumber the property without approval of
the federal awarding agency, but may use the equipment for its other federally sponsored
activities, when it is no longer needed for the original project.

C. Inventory

Minor materials and supplies are charged to expense during the period of purchase. As a
result, no inventory is recognized for these items in the financial schedule.

The departure from generally accepted accounting principles allows NSF to properly
monitor and track actual expenditures incurred by the awardee. The departure does not
constitute a material weakness in internal controls.




                                            29
Note 2. Income Taxes

Springfield Technical Community College (STCC) is a private nonprofit corporation,
incorporated under the laws of the Commonwealth of Massachusetts. STCC is exempt
from income taxes under the Internal Revenue Code. It is also exempt from the
Commonwealth of Massachusetts franchise or income tax.




                                       30
                                          APPENDIX A




APPENDIX A SPRINGFIELD TECHNICAL COMMUNITY COLLEGE’S
               COMMENTS TO THE REPORT




                         31
        a                           Commonwealth of Massachusetts
                                         Office of the Comptroller
                                       One Ashburton Place, Room 901
                                        Boston, Massachusetts 02108

                                                                                    Phone (617) 727-5000
                                                                                    Fax (617) 727-2163
                                                                                    Internet http://www.mass.~ovlosc


  December 24,2004


  Office of Inspector General
  National Science Foundation
  420 1 Wilson Blvd., Suite 1 135
  Arlington, VA 22230

  RE: Audit of National Science Foundation (NSF) Award DUE-975 1990




  We have reviewed Leon Snead & Company's audit of Springfield Technical Community College (STCC).
  Thank you for requesting our comments. After analyzing STCC's response, we believe STCC has appropriately
  prepared new controls in the area of grants management. Through the preparation of a grants manual, STCC has
  incorporated suitable internal controls into this business area. STCC has also responded to the findings with, in
  some cases, additional information that should decrease the total questioned costs. Please let us know as well
  as STCC as soon as possible if you approve of any adjustment to the total questioned costs based on the
  additional information that STCC has provided you.
  Please contact me if you wish to discuss any particular portion of the audit in more depth. STCC has asked me
  to include documentation with this response, which is attached.




  cc:   -
  Enclosures




  E:\STCC audit reponse 12-04.doc

DEC 2 8 2004
These seven recommended adjustments would result in Question Cost Sharing of $33,428
versus $3 14,171 as calculated by the auditors.

Thank you for your attention to this response. If further clarification is required, do not
hesitate to contact us.

Sincerely,




    Office of Inspector General
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL


            Internet
          www.nsf.gov/oig


           Email HotLine
            oig@nsf.gov


            Telephone
           703-292-7100


    Toll-Free Anonymous Hotline
           1-800-428-2189


               Fax
           703-292-9158


                 Mail
     Office of Inspector General
     National Science Foundation
    4201 Wilson Blvd., Suite 1135
        Arlington, VA 22230
